  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


    BLUE CROSS BLUE SHIELD OF
    TENNESSEE OVERSTATED THE
 MEDICARE SEGMENT PENSION ASSETS
AND MEDICARE’S SHARE OF THE EXCESS
  PENSION LIABILITIES DUE TO THE
        SEGMENT CLOSING



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                        August 2012
                                                       A-07-12-00389
                           Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.


Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective August 1, 2009.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare pension assets/liabilities, in accordance with CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Upon the termination of its Medicare contracts, BCBS Tennessee identified Medicare’s share of
the Medicare segment excess pension liabilities to be $2,195,355.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at BCBS Tennessee (A-07-03-03043, issued
October 4, 2004), which brought the Medicare segment pension assets to January 1, 2002. We
recommended that BCBS Tennessee decrease its Medicare segment pension assets by $610,201
and, as a result, recognize $3,348,862 as the Medicare segment pension assets as of
January 1, 2002.

OBJECTIVE

Our objective was to determine whether BCBS Tennessee complied with Federal requirements
and the Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation,

   •   updating the Medicare segment’s pension assets from January 1, 2002, to
       August 1, 2009, and

   •   determining Medicare’s share of the Medicare segment excess pension liabilities as a
       result of the termination of the Medicare contracts.

                                                 i
SUMMARY OF FINDINGS

BCBS Tennessee implemented the prior audit recommendation to recognize $3,348,862 as the
Medicare segment pension assets as of January 1, 2002. BCBS Tennessee identified Medicare
segment pension assets of $2,315,658; however, we determined that the Medicare segment
pension assets were $2,139,292 as of August 1, 2009. The difference, $176,366, was an
overstatement of Medicare segment pension assets. BCBS Tennessee overstated the Medicare
segment pension assets because it did not calculate them in accordance with Federal
requirements and the Medicare contract’s pension segmentation language when updating the
Medicare segment pension assets from January 1, 2002, to August 1, 2009.

In addition, BCBS Tennessee computed Medicare’s share of the Medicare segment excess
pension liabilities to be $2,195,355; however, we determined that Medicare’s share of the
Medicare segment excess pension liabilities was $2,016,746 as of August 1, 2009. The
difference, $178,609, was unallowable for Medicare reimbursement. BCBS Tennessee
overstated Medicare’s share of excess pension liabilities because it did not calculate them in
accordance with Federal requirements.

RECOMMENDATIONS

We recommend that BCBS Tennessee:

   •   decrease Medicare segment pension assets as of August 1, 2009, by $176,366 and

   •   decrease Medicare’s share of the excess pension liabilities by $178,609 and submit for
       reimbursement $2,016,746 as Medicare’s share of the excess pension liabilities due to the
       segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations
and stated that it would work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix C.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page
INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield of Tennessee and Medicare .............................................. 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1
              Prior Pension Segmentation Audit Report .............................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          PRIOR AUDIT RECOMMENDATION ............................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Contributions and Transferred Prepayment Credits Overstated ............................. 5
              Benefit Payments Understated ................................................................................ 6
              Net Transfers Overstated ........................................................................................ 6
              Earnings, Net Expenses Overstated ........................................................................ 6

          MEDICARE SEGMENT EXCESS PENSION LIABILITIES .......................................... 7
               Federal Requirements ............................................................................................. 7
               Medicare Segment Excess Pension Liabilities as of August 1, 2009 ..................... 8
               Medicare’s Share of Excess Pension Liabilities as of August 1, 2009 ................... 8

          RECOMMENDATIONS .................................................................................................... 9

          AUDITEE COMMENTS.................................................................................................... 9

OTHER MATTER...................................................................................................................... 10

APPENDIXES

    A: STATEMENT OF MARKET VALUE OF PENSION ASSETS
       FOR BLUE CROSS BLUE SHIELD OF TENNESSEE
       FOR THE PERIOD JANUARY 1, 2002, TO AUGUST 1, 2009

    B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    C: AUDITEE COMMENTS

                                                                     iii
                 Glossary of Abbreviations and Acronyms

BCBS Tennessee   Blue Cross Blue Shield of Tennessee
CAS              Cost Accounting Standards
CMS              Centers for Medicare & Medicaid Services
FAR              Federal Acquisition Regulation
WAV              weighted average value




                                 iv
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Tennessee and Medicare

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective August 1, 2009.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contracts
require contractors to identify excess Medicare pension assets/liabilities, in accordance with CAS
413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

Upon the termination of its Medicare contracts, BCBS Tennessee identified Medicare’s share of
the Medicare segment excess pension liabilities to be $2,195,355.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at BCBS Tennessee (A-07-03-03043, issued
October 4, 2004), which brought the Medicare segment pension assets to January 1, 2002. We
recommended that BCBS Tennessee decrease its Medicare segment pension assets by $610,201

                                                 1
and, as a result, recognize $3,348,862 as the Medicare segment pension assets as of
January 1, 2002.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether BCBS Tennessee complied with Federal requirements
and the Medicare contracts’ pension segmentation requirements when:

   •    implementing the prior audit recommendation,

   •    updating the Medicare segment’s pension assets from January 1, 2002, to
        August 1, 2009, and

   •    determining Medicare’s share of the Medicare segment excess pension liabilities as a
        result of the termination of the Medicare contracts.

Scope

We reviewed BCBS Tennessee’s identification of its Medicare segment; update of Medicare
segment assets from January 1, 2002, to August 1, 2009; and the Medicare segment’s closing
calculation as of August 1, 2009.

Achieving our objective did not require us to review BCBS Tennessee’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the Medicare segment’s assets, and the Medicare segment’s final assets and liabilities
to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at BCBS Tennessee’s office in Chattanooga, Tennessee, during
November and December 2011.

Methodology

To accomplish our objectives, we took the following steps:

   •     We reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to
         this audit.

   •     We reviewed the annual actuarial valuation reports prepared by BCBS Tennessee’s
         actuarial consulting firms, which included the pension plan’s assets, liabilities, normal
         costs, contributions, benefit payments, investment earnings, and administrative
         expenses. We used this information to calculate the Medicare segment assets.

   •     We reviewed the Medicare segment closing calculation prepared by BCBS Tennessee’s
         staff and its actuarial consulting firms.

                                                 2
   •    We obtained and reviewed the pension plan documents and Department of
        Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
        assets.

   •    We interviewed BCBS Tennessee staff responsible for identifying the Medicare
        segment to determine whether the segment was properly identified in accordance with
        the Medicare contracts.

   •    We reviewed BCBS Tennessee’s accounting records to verify the segment identification
        and benefit payments made to the Medicare segment.

   •    We reviewed the prior segmentation audit performed at BCBS Tennessee
        (A-07-03-03043) to determine the beginning market value of assets.

   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment pension assets from January 1, 2002, to
        August 1, 2009, and the Medicare segment’s excess pension liabilities as of
        August 1, 2009.

   •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of BCBS Tennessee’s pension costs
claimed for Medicare reimbursement (A-07-12-00390) and used the information obtained during
that audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

BCBS Tennessee implemented the prior audit recommendation to recognize $3,348,862 as the
Medicare segment pension assets as of January 1, 2002. BCBS Tennessee identified Medicare
segment pension assets of $2,315,658; however, we determined that the Medicare segment
pension assets were $2,139,292 as of August 1, 2009. The difference, $176,366, was an
overstatement of Medicare segment pension assets. BCBS Tennessee overstated the Medicare
segment pension assets because it did not calculate them in accordance with Federal
requirements and the Medicare contract’s pension segmentation language when updating the
Medicare segment pension assets from January 1, 2002, to August 1, 2009.




                                               3
Appendix A presents details of the Medicare segment’s pension assets from January 1, 2002, to
August 1, 2009, as determined during our audit. Table 1 below summarizes the audit
adjustments required to update Medicare segment pension assets in accordance with Federal
requirements.

                      Table 1: Summary of Audit Adjustments
                                             Per Audit      Per BCBS                      Difference
                                                            Tennessee
Prior Audit Recommendation                    $3,348,862     $3,348,862                           $0

Update of Medicare Segment Assets
Contributions and Transferred Prepayment Credits          $6,015,874       $6,066,099       ($50,225)
Benefit Payments                                         (4,594,436)      (4,564,305)        (30,131)
Net Transfers                                            (4,241,307)      (4,241,574)             267
Earnings, Net Expenses                                     1,610,299        1,706,576        (96,277)
Overstatement of Medicare Segment Assets                                                  ($176,366)

In addition, CAS 413 requires a segment closing adjustment to be made in order to recognize
Medicare’s share of the Medicare segment excess pension liabilities as a result of the termination
of the Medicare contracts. BCBS Tennessee computed Medicare’s share of the Medicare
segment excess pension liabilities to be $2,195,355; however, we determined that Medicare’s
share of the Medicare segment excess pension liabilities was $2,016,746 as of August 1, 2009.
The difference, $178,609, was unallowable for Medicare reimbursement. BCBS Tennessee
overstated Medicare’s share of excess pension liabilities because it did not calculate them in
accordance with Federal requirements.

PRIOR AUDIT RECOMMENDATION

BCBS Tennessee implemented the prior audit recommendation (A-07-03-03043) which
recommended that BCBS Tennessee decrease Medicare segment pension assets by $610,201 and
recognize $3,348,862 of Medicare segment pension assets as of January 1, 2002.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

           1. The majority of the salary dollars is allocated to the Medicare
              agreement/contract; or,


                                                4
           2. Less than a majority of the salary dollars are charged to the Medicare
              agreement/contract, and these salary dollars represent 40% or more of the
              total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. For plan years beginning after March 30, 1995, the CAS requires
investment income and expenses to be allocated among segments based on the ratio of the
segment’s weighted average value (WAV) of assets to Total Company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities.

Finally, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned to
the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Transferred Prepayment Credits Overstated

BCBS Tennessee overstated contributions and transferred prepayment credits by $50,225 for the
Medicare segment. The overstatement occurred primarily because BCBS Tennessee did not
correctly calculate the assignable pension cost upon which the contributions and transferred
prepayment credits were based. As a result, BCBS Tennessee overstated the Medicare segment
pension assets by $50,225.

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit.

Table 2 on the following page provides information on our calculations of contributions and
prepayment credits, BCBS Tennessee’s calculations, and the difference between the two on a
year-by-year basis.




                                                 5
                     Table 2: Contributions and Prepayment Credits
                               for the Medicare Segment
                         Per Audit Per BCBS Tennessee Difference
                   2002    $668,557               $668,557         $0
                   2003     776,702                838,172  (61,470)
                   2004     889,287                929,448  (40,161)
                   2005   1,085,165              1,099,958  (14,793)
                   2006   1,076,502              1,026,789     49,713
                   2007     932,594                919,849     12,745
                   2008     332,756                324,830      7,926
                   2009     254,311                258,496    (4,185)
                   Total $6,015,874             $6,066,099 ($50,225)

Benefit Payments Understated

BCBS Tennessee understated benefit payments by $30,131 because of differences in the
identification of the Medicare segment participants for 2006. Therefore, the Medicare segment
pension assets were overstated by $30,131.

Net Transfers Overstated

BCBS Tennessee overstated net transfers out of the Medicare segment by $267. The
overstatement occurred primarily because BCBS Tennessee incorrectly identified participants
who transferred in and out of the Medicare segment. This overstatement of the net transfer
adjustment resulted in an understatement of the Medicare segment assets by $267.

Earnings, Net Expenses Overstated

BCBS Tennessee overstated investment earnings, less administrative expenses, by $96,277 for
the Medicare segment, because it used incorrect contributions and transferred prepayment
credits, benefit payments, and net transfers (all discussed above), to develop the Medicare
segment pension asset base. In our audited update, we allocated earnings, net expenses based on
the applicable CAS requirements.

Table 3 on the following page provides information on our calculations of earnings, net
expenses, BCBS Tennessee’s calculations, and the difference between the two on a year-by-year
basis.




                                               6
                             Table 3: Earnings, Net Expenses
                                for the Medicare Segment
                          Per Audit Per BCBS Tennessee Difference
                    2002 ($353,735)              ($382,748)   $29,013
                    2003     779,115                839,115  (60,000)
                    2004     550,447                559,466    (9,019)
                    2005     540,697                550,882  (10,185)
                    2006     816,291                827,490  (11,199)
                    2007     334,695                343,712    (9,017)
                    2008 (1,231,421)            (1,271,172)     39,751
                    2009     174,210                239,831  (65,621)
                    Total $1,610,299             $1,706,576 ($96,277)

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension assets/liabilities
in accordance with CAS 413.

Cost Accounting Standards

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

                                                7
       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

       (iv) Pension plan improvements adopted within 60 months of the date of the event
       which increase the actuarial accrued liability shall be recognized on a prorata
       basis using the number of months the date of adoption preceded the event date.
       Plan improvements mandated by law or collective bargaining agreement are not
       subject to this phase-in.

Medicare Segment Excess Pension Liabilities as of August 1, 2009

BCBS Tennessee identified $2,287,164 in excess Medicare segment pension liabilities as of
August 1, 2009. However, we calculated the excess Medicare segment pension liabilities to be
$2,132,994 as of that date. Therefore, BCBS Tennessee overstated the excess pension liabilities
by $154,170. The overstatement occurred because BCBS Tennessee did not fully comply with
Federal regulations in its calculation of the Medicare segment’s excess pension liabilities.
Specifically, BCBS Tennessee overstated the excess pension liabilities because it (a) overstated
the Medicare segment’s final market value of pension assets as of August 1, 2009, (b) did not
adjust the Medicare segment’s final market value of assets by the accumulated unfunded
actuarial liability, (c) did not recognize a prorated portion of the 2006 pension plan amendment
when calculating its final accrued actuarial liabilities, and (d) incorrectly identified the final
Medicare segment participants as of August 1, 2009. The development of excess liabilities was
used to identify Medicare’s share of Medicare segment’s excess pension liabilities.

Medicare’s Share of Excess Pension Liabilities as of August 1, 2009

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment



                                                8
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare’s Share of the Excess Pension Liabilities Overstated

BCBS Tennessee calculated $2,195,355 as Medicare’s share of the excess pension liabilities as
of August 1, 2009; however, we determined that Medicare’s share of the excess pension
liabilities was $2,016,746 as of August 1, 2009. The difference, $178,609, was unallowable for
Medicare reimbursement. BCBS Tennessee overstated Medicare’s share of excess pension
liabilities because it did not calculate them in accordance with Federal requirements. More
specifically, the overstatement occurred primarily because BCBS Tennessee (1) overstated the
Medicare segment’s excess pension liabilities (as discussed above) and (2) did not correctly
compute the aggregate Medicare percentage in accordance with the CAS.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during the prior pension costs claimed
reports (A-07-04-03054 and A-07-94-00815) and current pension costs claimed
(A-07-12-00390) audits. Appendix B shows our calculation of the Medicare segment’s
aggregate Medicare percentage; Table 4 below shows our calculation of Medicare’s share of the
excess pension liabilities.

            Table 4: Medicare’s Share of Excess Pension Liabilities
                        Excess Medicare        Aggregate       Excess Liabilities
                            Segment            Medicare          Attributable to
                         Liabilities (A)    Percentage (B)     Medicare (A x B)
Per Audit                     $2,132,994              94.55%           $2,016,746
Per BCBS Tennessee              2,287,164             95.99%            2,195,355
 Difference                                                            ($178,609)

RECOMMENDATIONS

We recommend that BCBS Tennessee:

   •   decrease Medicare segment pension assets as of August 1, 2009, by $176,366 and

   •   decrease Medicare’s share of the excess pension liabilities by $178,609 and submit for
       reimbursement $2,016,746 as Medicare’s share of the excess pension liabilities due to the
       segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations
and stated that it would work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix C.


                                                9
                                     OTHER MATTER

BCBS Tennessee did not correctly identify the Total Company pension assets as of August 1,
2009, in its proposed asset update. BCBS Tennessee did not include the 2008 contributions,
which totaled $46,500,000, in its Total Company pension assets as of August 1, 2009. We
included these contributions in our update and identified $202,264,169 as the Total Company
pension assets as of August 1, 2009.




                                              10
APPENDIXES
                                                                           Page 1 of 4

         APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                 FOR BLUE CROSS BLUE SHIELD OF TENNESSEE
              FOR THE PERIOD JANUARY 1, 2002, TO AUGUST 1, 2009

                                                                           Medicare
           Description                Total Company     “Other” Segment    Segment

Assets January 1, 2002           1/     $122,002,507       $118,653,645      $3,348,862

Transferred Prepayment Credits   2/                0           (668,557)       668,557
Contributions                    3/       58,400,000         58,400,000              0
Earnings                         4/       (9,944,663)        (9,606,195)      (338,468)
Benefit Payments                 5/      (14,443,923)       (14,230,190)      (213,733)
Expenses                         6/         (448,578)          (433,311)       (15,267)
Transfers                        7/                0            179,823       (179,823)

Assets January 1, 2003                  $155,565,343       $152,295,215     $3,270,128

Transferred Prepayment Credits                     0           (776,702)       776,702
Contributions                             15,000,000         15,000,000              0
Earnings                                  28,991,250         28,193,136        798,114
Benefit Payments                         (27,335,404)       (27,058,853)      (276,551)
Expenses                                    (690,136)          (671,137)       (18,999)
Transfers                                          0            (11,768)        11,768

Assets January 1, 2004                  $171,531,053       $166,969,891     $4,561,162

Transferred Prepayment Credits                     0           (889,287)       889,287
Contributions                             12,500,000         12,500,000              0
Earnings                                  17,722,676         17,147,614        575,062
Benefit Payments                         (12,499,156)       (12,330,702)      (168,454)
Expenses                                    (758,592)          (733,977)       (24,615)
Transfers                                          0            (46,305)        46,305

Assets January 1, 2005                  $188,495,981       $182,617,234     $5,878,747

Transferred Prepayment Credits                     0         (1,085,165)     1,085,165
Contributions                             25,500,000         25,500,000              0
Earnings                                  14,741,370         14,171,880        569,490
Benefit Payments                         (18,231,295)       (18,199,986)       (31,309)
Expenses                                    (745,325)          (716,532)       (28,793)
Transfers                                          0            821,764       (821,764)

Assets January 1, 2006                  $209,760,731       $203,109,195     $6,651,536
                                                                           Page 2 of 4


                                                                           Medicare
           Description                Total Company     “Other” Segment    Segment

Assets January 1, 2006                  $209,760,731       $203,109,195      $6,651,536

Transferred Prepayment Credits                     0         (1,076,502)      1,076,502
Contributions                             14,500,000         14,500,000               0
Earnings                                  25,159,874         24,318,438         841,436
Benefit Payments                         (17,916,581)       (15,891,602)     (2,024,979)
Expenses                                    (751,859)          (726,714)        (25,145)
Transfers                                          0          1,906,666      (1,906,666)

Assets January 1, 2007                  $230,752,165       $226,139,481     $4,612,684

Transferred Prepayment Credits                     0           (932,594)        932,594
Contributions                             11,800,000         11,800,000               0
Earnings                                  16,257,839         15,902,750         355,089
Benefit Payments                         (24,356,428)       (22,813,668)     (1,542,760)
Expenses                                    (933,738)          (913,344)        (20,394)
Transfers                                          0           (206,607)        206,607

Assets January 1, 2008                  $233,519,838        228,976,018      $4,543,820

Transferred Prepayment Credits                     0           (332,756)        332,756
Contributions                             46,500,000         46,500,000               0
Earnings                                 (56,768,493)       (55,554,500)     (1,213,993)
Benefit Payments                         (24,741,528)       (24,446,912)       (294,616)
Expenses                                    (814,950)          (797,522)        (17,428)
Transfers                                          0          1,077,251      (1,077,251)

Assets January 1, 2009                  $197,694,867       $195,421,579     $2,273,288

Transferred Prepayment Credits                     0           (254,311)       254,311
Contributions                                      0                  0              0
Earnings                                  13,733,148         13,555,032        178,116
Benefit Payments                          (8,862,719)        (8,820,685)       (42,034)
Expenses                                    (301,127)          (297,221)        (3,906)
Transfers                                          0            520,483       (520,483)

Assets August 1, 2009                   $202,264,169       $200,124,877     $2,139,292
Per BCBS Tennessee               8/     $155,764,169        153,448,511     $2,315,658
Asset Variance                   9/      $46,500,000        $46,676,366      ($176,366)
                                                                                                    Page 3 of 4

ENDNOTES

 1/ We determined the Medicare segment pension assets as of January 1, 2002, based upon our prior
    segmentation audit of Blue Cross Blue Shield of Tennessee (BCBS Tennessee) (A-07-03-03043). The
    amounts shown for the “Other” segment represent the difference between the Total Company and the
    Medicare segment. All pension assets are shown at market value.

 2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future
    funding requirements before current year contributions in order to avoid incurring unallowable interest.
    Prepayment credits are transferred to the Medicare segment as needed to cover funding requirements.

 3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of
    Labor/Internal Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare
    segment based on the ratio of the Medicare segment funding target divided by the Total Company funding
    target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for
    in the “Other” segment until needed to fund pension costs in the future.

 4/ We obtained investment earnings from the actuarial valuation reports. We allocated investment earnings
    based on the ratio of the segment’s weighted average value (WAV) of assets to Total Company WAV of
    assets as required by the Cost Accounting Standards (CAS).

 5/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained
    the benefit payments from documents provided by BCBS Tennessee.

 6/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 7/ We identified participant transfers between segments by comparing valuation data files provided by BCBS
    Tennessee. Asset transfers were equal to the actuarial liability determined under the accrued benefit cost
    method in accordance with the CAS.

 8/ We obtained total asset amounts as of August 1, 2009, from documents prepared by BCBS Tennessee’s
    actuarial consulting firms.

 9/ The asset variance represents the difference between our calculation of Medicare segment pension assets
    and BCBS Tennessee’s calculation of the Medicare segment pension assets.
                                                                                            Page 4 of 4

     APPENDIX B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

                     Medicare Segment                Total Medicare
                       Pension Costs                Segment Pension              Medicare’s
   Year             Charged to Medicare                  Costs                  Aggregate %
     1/                     (A)                            (B)                    (A/B) 2/
   1987                            $97,683                    $103,286
   1988                            $26,896                     $28,503
   1989                                 $0                          $0
   1990                                 $0                          $0
   1991                                 $0                          $0
   1992                                 $0                          $0
   1993                            $54,844                     $57,164
   1994                            $89,417                    $101,265
   1995                            $74,111                     $89,907
   1996                           $169,818                    $179,247
   1997                           $160,780                    $165,208
   1998                           $196,581                    $200,880
   1999                           $264,620                    $266,943
   2000                           $267,253                    $269,246
   2001                           $362,514                    $364,153
   2002                           $597,996                    $600,759
   2003                           $712,033                    $749,666
   2004                           $806,631                    $861,141
   2005                           $959,517                  $1,036,195
   2006                         $1,021,822                  $1,078,668
   2007                           $896,316                    $968,571
   2008                           $435,748                    $482,716
   2009                           $313,335                    $337,500

   Total                         $7,507,915                $7,941,018              94.55%


ENDNOTES

1/ The aggregate percentage was based on the audited pension costs as determined during the
   pension audits related to the Tennessee Medicare segment. The information for fiscal years 1987
   - 1993 was obtained during our prior audit (A-07-94-00815). The information for fiscal years
   1994 - 2002 was obtained from the prior audit (A-07-04-03054). The information for fiscal years
   2003 - 2009 was obtained during the current review (A-07-12-00390).

2/ We calculated the aggregate Medicare percentage by dividing the Medicare Segment Pension
   Costs Claimed for Medicare Reimbursement (numerator) by the Total Medicare Segment
   Pension Costs (denominator) pursuant to Cost Accounting Standard 413.
                      APPENDIX C: AUDITEE COMMENTS




   ~~~~~~~plans                   fora better      life~
   I Cameron Hill Circle
   Chattanooga, TN 37402
   bcbst.com


July 13,2012

Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 12'11 Street, Room 0429
Kansas City, MO 64016

Rc: Report Number: A-07-12-00389

Mr. Cogley:

This letter is in response to your letter dated June 22, 2012, and the attached draft report entitled Blue
Cross Blue Shield of Tennessee Overstated the Medicare Segment Pension Assets and Medicare's
Share ofExcess Pension Liabilities Due to the Segment Closing. As requested, following are our
comments on the two summary recommendations set forth in the report including a statement of
concurrence as well as a statement describing the nature of the corrective action taken or planned to be
taken.


Recommendation: Decrease Medicare segment pension assets by $176.366

We concur with this recommendation and will work directly with CMS to resolve this issue because we
no longer have access to the CAFM system.


Recommendation: Decrease Medicare's share of excess peqsion liabilities by $ 178,609 and submit
for reimbursement of $2.0 16.746

We concur with this recommendation and will work with CMS to resolve this issue.


If you have questions o r comments regarding this response or require anything further from us please
contact me by e-mail at Ralph Woodard@BCBST.com or by phone at 423-535-5192.


Sincerely,


 j. ~w~~~t
T. Ralph Woodard, Jr.
Chief Financial Ofticer, Riverbend Government Benefits Administrator, Inc.




                  81ueCtoss   81 u~Shitrld o f Tenne sse•. lnc .. an   Indepen dent License-e of the BlueCross BlueS.hletd Asso<l&tlon
